State of Louisiana
DEPARTMENT OF JUSTICE
OFFICE OF THE ATTORNEY GENERAL
P.O. BOX $4005
BATON ROUGE
70804-9005,

 

Jeff Landry
Attomey General

July 27, 2021

By electronic submission

The Honorable Scott S. Harris

Clerk of Court, Supreme Court of the United States
1 First Street, NE

Washington, D.C. 20543

Re: Justin Terrell Atkins v. Timothy Hooper, Warden (20-1605)

Dear Mr. Harris:

The Court has requested a response from Respondent, the State of Louisiana, in this
matter. The brief in opposition is currently due on August 11, 2021. In light of the
complexity of the statutory and constitutional issues in this case, the State
respectfully requests an extension of thirty days.

The new due date would be September 10, 2021.

JEFF LANDRY
ATTORNEY GENERAL

Shae McPhee

Deputy Solicitor General

ce: Christine Marie Calogero
